No.

t

1

o

In The
SUPREME COURT OF THE UNITED STATES

filed
JUN 0 7 2019

LESLIE T. JACKSON,
Petitioner,
v.

DISTRICT OF COLUMBIA
Respondent.

On Petition For A Writ Of Certiorari
To The District Of Columbia Court Of Appeals

PETITION FOR WRIT OF CERTIORARI

Leslie T. Jackson, pro se
235 Oglethorpe Street, N.W.
Washington, D.C. 20011
(202) 679-5047

RECEIVED
NOV 1 5 2019

iEgiSsir:'*

QUESTIONS PRESENTED
1.

IS THE LOWER COURT CLERK AND

JUDGE LEGALLY BOUND TO FOLLOW THIS
COURTS PRECEDENT AND IN PARTICULAR ITS
PRECEDENT IN ARTIS V. DISTRICT OF
COLUMBIA, 138 S. Ct. 594 (January 22, 2018) AND
IN THAT REGARD WILL AN INVOLUNTARY
ADMINISTRATIVE DISMISSAL WITHOUT
PREJUDICE ON SUBJECT MATTER
JURISDICTION BAR A SUBSEQUENT SIMILAR
CASE UNDER THE 30-DAY STATUTE OF
LIMITATION IN D.C. Code Chapter 1 § 623.
2.

WHETHER A MATERIAL MISTAKE

OF FACT, WHICH IMPACTS JURISDICTION, IN
AN ADMINISTRATIVE DISMISSAL WITHOUT
PREJUDICE IS A FINAL DECISION ON THE
i

MERITS THAT CANNOT BE APPEALED.
3.

PURSUANT TO COURT PRECEDENT

AND LOCAL COURT RULES OF CIVIL
PROCEDURE 41, IS AN INVOLUNTARY
DISMISSAL WITHOUT PREJUDICE ON
JURISDICTIONAL GROUNDS A FINAL
ADJUDICATION ON THE MERITS THAT IS
SUBJECT TO RES JUDICATA IN A
SUBSEQUENT SIMILAR CASE.
4.

CAN A PARTY WHO FAILS TO

CORRECT A MATERIAL MISTAKE OF FACT IN A
LEGAL DECISION UNDER WHICH IT GREATLY
BENEFITED AND SEVERELY PREJUDICED THE
OTHER PARTY BE VIEWED TO “ACQUIESCE”
AND WOULD THAT “ACQUIESCENCE
CONSTITUTE A CONSTRUCTIVE AGREEMENT
AND A TACIT APPROVAL OF THAT MISTAKE n

CAN THAT APPROVAL BE EXPRESSED OR
IMPLIED WHEN THE PARTY HAS FULL
KNOWLEDGE OF ITS RIGHT TO OBJECT BUT
TAKES NO ACTION TO EFFECTUATE A
DIFFERENT OUTCOME. See Collins Dictionary of
Law © W.J. Stewart, 2006.
5.

DOES THE CLERK OF THE D.C.

Court of Appeals HAVE THE LEGAL AUTHORITY
TO AFFIRM THE LOWER COURT’S DISMISSAL
OF APPEAL WITHOUT PREJUDICE ON
JURISDICTIONAL GROUNDS AND DOES THE
CLERK HAVE THE AUTHORITY TO ENTER A
FINAL JUDGMENT OF ADJUDICATION ON THE
MERITS IN CONTRADICTION TO HIS OR HER
AUTHORITY PURSUANT TO LOCAL CIVIL RULE
41 THAT ONLY PERMITS A CLERK TO DISMISS

in

AN APPEAL WITHOUT PREJUDICE.

IV

TABLE OF CONTENTS
QUESTIONS PRESENTED
TABLE OF AUTHORITIES
PETITION FOR WRIT OF CERTIORARI

1-1V

vi

1

OPINIONS BELOW

1

JURISDICTION,

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED....... ...............

6

STATEMENT OF THE CASE

7-8

REASONS FOR GRANTING THE PETITION...8-11
CONCLUSION

11

INDEX TO APPENDICES
APPENDIX 1
la-lc
'
District of Columbia Court of Appeals
No. 18-AA-950 Judgment
APPENDIX 2
2a-2i
Compensation Review Board No. 18-043
Decision and Order
APPENDIX 3
3a-3c
Department of Employment Services
v

Dismissal Order
4a-4b
APPENDIX 4..................
Department of Employment Services
Order
5a-5b
APPENDIX 5
Transcript of Proceedings in Leslie T.
Jackson v. District of Columbia, District
of Columbia Superior Court Civil Action
No. 2011-008731

vi

TABLE OF AUTHORITIES
CASES:
Artis v. District of Columbia, 138 S. Ct. 594 (January
i
22, 2018)
Cohen v. Board of Trustees of UDC, 819 F.3d 476
(D.C. Cir. 2016)................. ,..................................... 10
Green Tree Fin. Corp.-Ala. V. Randolph , 531 U.S.
11
79, 86 (2000)
Medellin v. Texas. 552 U.S. 491, 513 n.9
(2008)........................................................

11

Phillips Petro Ca. v. Shutts, 472 U.S. 797
(1985).................... .....................................

11

Semktek Inti. v. Lockheed Martin Corp., 531 U.S.
497 (2001)................................................................. 10
STATUTES AND RULES:
D.C. Code Chapter I §
1,2-4

623

D.C. Ct. App. Rules of Civil Procedure 41 (a)
and the Federal Rules of Civil Procedure 41
(a)(1)..................................................................

5

D.C. Ct. App. R. 45 — Clerk’s Duties

6

Vll

Federal Practice § 4421 at 576-78

6

OTHER:
TreatisesBlack’s Law Dictionary (17th Edition)

vui

5

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of
certiorari issue to review the judgment below.

OPINION BELOW
The opinion of the District of Columbia Court
of Appeals, the highest state court, to review the
merits at Appendix A. And the unpublished related
and relevant memorandum decisions of the District
of Columbia Superior Court and administrative
forums are herein included as Appendix 1-5.

JURISDICTION
The date on which the District of Columbia
Court of Appeals, the highest state court, decided my
case was on March 18, 2019. A copy of that decision
appears at Appendix 1.
1

A 60-day extension of time to refile the
petition for writ of certiorari was granted on June
10, 2019 and is due on August 9, 2019.
The jurisdiction of this Court is invoked under
28 U.S.C. § 1254(1).

CONSTITUTIONAL AND STATUTORY
PROVISIONS
The United States Constitution, Article I
created federal courts of which the District of
Columbia courts were a part of until passage of the
1970 Reorganization Act. United States Constitution
Article III established the District of Columbia
Superior Court and the District of Columbia Court of
Appeals and defined its functions and the roles of

2

personnel.
D.C. Code Chapter I § 623.03, et seq. is the
District of Columbia Comprehensive Merit Personnel
Act (CMPA) in which it provides for compensation to
personnel who are injured while in the performance
of their job. The 84 Statute 475, Public Law 91-358,
July 29, 1970, 473 Public Law 91-358 is the District
of Columbia Court Reform and Criminal Procedure
Act of 1970 that is sometimes referred to as the
Reorganization Act of 1970.
STATEMENT OF THE CASE
Ms. Jackson had two workplace injuries in
January 2006 and December 2009 while she worked
as an attorney at the District of Columbia Housing
Authority from October 31, 1996 until December
2010. While she was employed, she filed two
workers compensation claims pursuant to D.C. Code
3

Chapter 1 § 623, et seq. of the CMPA. And
those claims were accepted fourteen months (April
2011) and seven months (July 2006) after filing for
benefits, which is beyond the allotment of time
specified in the Act. But Respondent did not pay
benefits. Additionally, she filed a charge of
discrimination and retaliation against her employer
with the U.S. Equal Employment Opportunity
Commission (EEOC) while she was employed. The
EEOC found retaliation.
In April 2011, Petitioner filed a timely request
for an administrative hearing at the District of
Columbia Department of Employment Services
(DOES) regarding Respondent's April 2011
acceptance of claim but nonpayment and claimed
aggravation of injuries in the January 2006 accepted
4

claim. The matter was assigned to a hearing officer.
At DOES the parties participated in an initial
conference, discovery and briefing. In November
2011, Petitioner filed suit in D.C. Superior Court
seeking unpaid workers compensation.
In December 2011, Respondent’s DOES
administrative hearing officer dismissed Petitioner’s
hearing request without prejudice for lack of
jurisdiction, finding no case or controversy because
he determined that Respondent accepted the claim
and mistakenly concluded that Respondent is paying
compensation and benefits. App. 3a-3c. Respondent
did not move to correct the mistake regarding
payment, nor did it appeal.
Instead of appealing or moving to correct the
hearing officer’s December 2011 Determination
Order (DO) Respondent attached a copy of the DO to
5

pleadings for summary judgment and dismissal in
Superior Court, which were subsequently granted.
And Petitioner was barred from presenting any
evidence at trial in Superior Court relating to
workers compensation as a result.
In July 2013, at the pretrial conference and
after Petitioner’s workers compensation case had
been dismissed a Superior Court judge asked
Respondent on the record if the District of Columbia
had ever paid compensation and benefits. And
Respondent’s counsel said “They never commenced,
Your Honor.” App. 5b. Nonetheless, the judge
continued his bar of workers compensation evidence.
Petitioner’s case was pending in Superior Court until
late November 2013, but Petitioner appeal the
jurisdictional dismissal to the Court of Appeals and
6

almost four years later in February 2017 the Court
of Appeals affirmed on jurisdictional grounds, but
the case never reached the merits, yet the clerk’s
opinion, without a fact finder below discussed what
he deemed facts.
In the spring of 2017 Petitioner filed an
administrative appeal and requests for hearings
with the District of Columbia Compensation Review
Board (CRB), DOES and the District of Columbia
Office of Administrative Appeals. COB dismissed it
as untimely. App. 2.
In July and September 2017, the same DOES
hearing officer who, in December 2011, involuntarily
dismissed Petitioner’s hearing request without
prejudice concluded that Petitioner is entitled to a
hearing because his 2011 DO is without prejudice
and was not a final adjudication on the
7

merits. App. 4.
Nonetheless, in August 2017, D.C. Office of
Administrative Hearings dismissed for lack of
jurisdiction because it decided Petitioner’s request is
subject to the 30-day statute of limitation in the
CMPA, which directly contradicts DOES’s
September 12, 2017 order and DOES is the fact
finder forum. CRB disagreed with DOES and
affirmed the Office of Administrative Hearings
jurisdictional dismissal.
Petitioner appealed CRB decision to Court of
Appeals (CA). The clerk of CA cited CA precedent
only and decided res judicata barred Petitioner’s
appeal and hearing requests, even though Petitioner
cited Artis v. District of Columbia, 138 S. Ct, 594
(January 22, 2018) as authority and precedent.
8

REASONS FOR GRANTING THE PETITION
I.

AN INVOLUNTARY DISMISSAL
WITHOUT PREJUDICE UNDER THE
FEDERAL RULES OF CIVIL
PROCEDURE 41 IS NOT RES
JUDICATA AND A DECISION ON THE
MERITS
A dismissal without prejudice is a dismissal

that does not operate as an adjudication on the
merits according to local civil and Federal Rule of
Civil Procedure 41(a)(1) and it does not have res
judicata effect; thus, does not bar the same cause of
action filed at any date. Cf. Semktek Inti Inti. v.
Lockheed Martin Corp., 531 U.S. 497 (2001).
A fundamental rule of appellate jurisdiction is
the need for a final judgment or order that disposes
of all claims and adjudicates the rights and
liabilities, but a party is also entitled to a fair
opportunity at due process. Cohen v. Board of
9

Trustees of UDC, 819 F.3d 476 (D.C. Cir. 2016).

II.

THIS CASE PRESENTS A QUESTION OF
EXCEPTIONAL IMPORTANCE
WARRANTING REVERSAL OF THE D.C.
COURT OF APPEALS AND JUSTIFIES A
HEARING ON THE MERITS
Black’s Law Dictionary (17th Edition) defines a

dismissal without prejudice as “removal from the
court’s docket in such a way that the plaintiff may
refile the same suit on the same claim”, Id., at 482
and defines “dismissal without prejudice as ‘[a]
dismissal that does not bar the plaintiff”. Whereas
a dismissal with prejudice constitutes an order that
is immediately appealable that “plainly disposes of
the entire case on the merits and [leaves] no part of
it pending before the court.” Green Tree Fin. Corp.Ala. v. Randolph, 531 U.S. 79, 86(2000). A
dismissal without prejudice is not appealable
10

because it isn’t a final judgment. Id.
Consistent with at least thirty-one circuits
and the Restatement Second of Judgments and
earlier dismissal on alternative grounds, where one
is a lack of jurisdiction, is not res judicata.
Any finding made by act when the court has
determined that it does not have subject matter
jurisdiction carries no res judicata consequences.
See Federal Practice § 4421 at 576-78 (If a first
decision is supported by both finding that deny the
power of court to decide the case on the merits and
findings that go to the merits, preclusion is
inappropriate as to the findings on the merits. A
court that admits its own lack of power to decide
shall not undertake to bind a court that does have
the power to decide). (Footnotes omitted).
A lower court may not predetermine the res
11

judicata effect of its judgment. See Medellin v.
Texas, 552 U.S. 491, 513 n. 9 (2008) (“A lower court
adjudicating a dispute may not be able to
predetermine the res judicata effects of its own
judgment” (quoting Phillips Petro. Co. v. Shutts, 472
U.S. 797 (1985).
II.

WHETHER THE CLERK OF THE
DISTRICT OF COLUMBIA COURT OF
APPEALS ON HIS OR HER OWN
SIGNATORY AUTHORITY AND
WITHOUT THE SIGNATURE OF AN
ARTICLE I JUDGE CAN AUTHOR
OPINIONS AND DECISIONS OF THE
1COURT PURSUANT TO ARTICLES I
AND III OF THE U.S. CONSTITUTION,
DISTRICT OF COLUMBIA
REORGANIZATION ACT OF 1970 AND
RULES OF THE COURT
Article I created courts in the District of

Columbia. Then Article III established federal
courts in the District of Columbia when it was under
federal rule. But in 1970, the District of Columbia
12

Court Reorganization Act was passed which
provided that the D.C. Court of Appeals “shall
consist of a chief judge and eight associate judges.”
§11-702,84 STAT Public Law 91-358, July 29, 1970.
And provided that “[e]ach judge, when appointed
shall take the oath prescribed for judges of courts of
the United States.” Id.
Clerks are not approved by the United States
Constitution and Senate to render decisions for the
court, which requires the signature of an appellate
judge and an oath of office - which a District of
Columbia Court of Appeals’ clerk does not take (in
the Federal Rules of Appellate Procedure clerks of
the federal appeals courts are required to take an
oath for the office and have restrictions for the
office).
“The District of Columbia Court of Appeals
13

shall conduct its business according to the federal
rides of appellate procedure unless the court
prescribes or adopts modifications of those rules.”
Id. at § 11-743. Modifications of those rules were
promulgated as Rules of the District of Columbia
Court of Appeals and particularly Ride 45 states in
relevant parts:
Clerk’s Duties: (a) When Court Is Open. The
Clerk’s office will be open during hours on all
days except Saturday, Sundays and legal
holidays. The Court of Appeals is always open
to accept the filing of any papers related to an
appeal and to consider and dispose of
emergency matters.
Neither the Reorganization of Courts Act of 1970 or
the court’s rides grant authority to the clerk of the
court to solely entertain and dispose of or adjudicate
cases on the merits or to dispose of them with
prejudice.

14

CONCLUSION
For the foregoing reasons, Petitioner
respectfully requests that the Petition for Writ of
Certiorari be granted.
Respectfully submitted,

Leslie T. Jackson
235 Oglethorpe Street, N.W.
Washington, D.C. 20011
(202) 679-5047
Date: August 9, 2019

15

